No.

Supreme Court of tfje fHntteb i£>tateg
ROBERT L. KELLY,
Petitioner,
v.
GARRETT LANEY,
Respondent.
PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEAL
FOR THE NINTH CIRCUIT

APPENDIX
Robert L. Kelly #10670643
Oregon State Correctional Institution
3405 Deer Park Drive, SE
Salem, Oregon 97301
Petitioner pro se

INDEX OF APPENDICS

APPENDIX A-

Denial of Certificate of Appealability by the United States
Court of Appeals for the Ninth Circuit (July 21, 2021)

APPENDIX B -

Order of the United States District Court for the District of
Oregon denying relief (March 24, 2021)

APPENDIX C -

Findings and Recommendation of Magistrate Judge of
United States District Court for the District of Oregon
denying relief (January 12, 2021)

APPENDIX A-

Denial of Certificate of Appealability by the United
States Court of Appeals for the Ninth Circuit (July 21,
2021)

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

JUL 21 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

ROBERT L. KELLY,
Petitioner-Appellant,
v.
GARRETT LANEY,

No.

21-35335

D.C. No. 6:20-cv-00436-SU
District of Oregon,
Eugene
ORDER

Respondent-Appellee.
Before:

CANBY and TALLMAN, Circuit Judges.

The request for a certificate of appealability is denied because appellant has
not shown that “jurists of reason would find it debatable whether the petition states
a valid claim of the denial of a constitutional right and that jurists of reason would
find it debatable whether the district court was correct in its procedural ruling.”
Slack v. McDaniel, 529 U.S. 473, 484 (2000); see also 28 U.S.C. § 2253(c)(2);
Gonzalez v. Thaler, 565 U.S. 134, 140-41 (2012).
Any pending motions are denied as moot.
DENIED.

APPENDIX B -

Order of the United States District Court for the
District of Oregon denying relief (March 24, 2021)

Kelly v. Laney (D. Or. 2021)
ROBERT L. KELLY, Petitioner,
v.
GARRETT LANEY, Respondent.
Case No. 6:20-cv-436-SU
UNITED STATES DISTRICT COURT FOR THE DISTRICT OF OREGON
March 24, 2021
ORDER
Michael H. Simon, District Judge.
United States Magistrate Judge Patricia Sullivan issued Findings and Recommendation in this case
on January 12, 2021. Judge Sullivan recommended that this Court deny Petitioner's Petition for Writ of
Habeas Corpus as untimely and decline to issue a Certificate of Appealability.
Under the Federal Magistrates Act ("Act"), the Court may "accept, reject, or modify, in whole or
in part, the findings or recommendations made by the magistrate." 28 U.S.C. § 636(b)(1). If a party
files objections to a magistrate judge's findings and recommendations, "the court shall make a de novo
determination of those portions of the report or specified proposed findings or recommendations to
which objection is made." Id.; Fed. R. Civ. P. 72(b)(3).
For those portions of a magistrate judge's findings and recommendations to which neither party
has objected, the Act does not prescribe any standard of review. See Thomas v. Am, 474
Page 2
U.S. 140, 152 (1985) ("There is no indication that Congress, in enacting [the Act], intended to require a
district judge to review a magistrate's report to which no objections are filed."); United States, v.
Reyna-Tayia, 328 F.3d 1114, 1121 (9th Cir. 2003) (en banc) (holding that the court must review de
novo magistrate judge's findings and recommendations if objection is made, "but not otherwise").
Although in the absence of objections no review is required, the Magistrates Act "does not preclude
further review by the district judge[] sua sponte ... under a de novo or any other standard." Thomas,
474 U.S. at 154. Indeed, the Advisory Committee Notes to Fed. R. Civ. P. 72(b) recommend that
"[w]hen no timely objection is filed," the Court review the magistrate judge's recommendations for
"clear error on the face of the record."
Petitioner timely filed an objection. Petitioner raises a new argument, asserting for the first time
that the Court should apply the doctrine of equitable tolling to find his Petition timely. It is within this
Court's discretion whether to accept new evidence or argument submitted with objections, see Jones v.
Blanas, 393 F.3d 918. 935 (9th Cir. 2004) (discussing the district court's discretion to consider new
arguments raised in objections); Brown v. Roe, 279 F.3d 742, 746 (9th Cir. 2002) (rejecting the Fourth
Circuit's requirement that a district court must consider new arguments raised in objections to a
magistrate judge's findings and recommendation); United States v. Howell 231 F.3d615. 621 (9th Cir.
2000) (discussing the circuit split on whether a district court must or may consider new evidence when
reviewing de novo a magistrate judge's findings and recommendation, and concluding that a district
court "has discretion, but is not required" to consider new evidence); see also 28 U.S.C. § 636(b)(1)
(stating that the district court judge "may also receive further evidence"). The Court declines to
consider Petitioner's new argument. Before the Magistrate Judge, Respondent raised the timeliness of
Petitioner's
Page 3

Habeas Petition in Respondent's brief, and Petitioner ignored that argument. Petitioner offers no
explanation why he did not raise his equitable tolling argument before Judge Sullivan.
Even if the Court were to consider Petitioner's equitable tolling argument, it would fail. The Ninth
Circuit has explained that "equitable tolling is unavailable in most cases and is appropriate only if
extraordinary circumstances beyond a prisoner's control make it impossible to file a petition on time."
Miranda v. Castro, 292 F.3d 1063. 1066 (9th Cir. 2002) (emphasis in original; quotation marks and
citation omitted). Petitioner fails to make the requisite showing.
The Court has reviewed de novo those portions of Judge Sullivan's Findings and Recommendation
to which Petitioner has objected, as well as Petitioner's objections and Respondent's response. The
Court agrees with Judge Sullivan’s reasoning regarding the timeliness of Petitioner's habeas petition
and adopts those portions of the Findings and Recommendation.
For those portions of Judge Sullivan’s Findings and Recommendation to which neither party has
objected, this Court follows the recommendation of the Advisory Committee and reviews those matters
for clear error on the face of the record. No such error is apparent.
The Court ADOPTS Judge Sullivan's Findings and Recommendation, ECF 24. The Court
DENIES Petitioner's Petition for Writ of Habeas Corpus, ECF 1. The Court declines to issue a
Certificate of Appealability on the basis that Petitioner has not made a substantial showing of the denial
of a constitutional right pursuant to 28 U.S.C. § 2253(c)(2).
IT IS SO ORDERED.
DATED this 24th day of March, 2021.
/s/ Michael H. Simon
Michael H. Simon
United States District Judge

APPENDIX C -

Findings and Recommendation of Magistrate Judge
of United States District Court for the District of
Oregon denying relief (January 12, 2021)

t

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF OREGON
ROBERT L. KELLY,
Case No. 6:20-CV-00436-SU
Petitioner,
FINDINGS AND RECOMMENDATION
v.
GARRETT LANEY,
Respondent.
Robert L. Kelly
10670643
Oregon State Correctional Institution
3405 Deer Park Drive SE
Salem, OR 97310-9385
Petitioner, Pro Se
Ellen F. Rosenblum, Attorney General
James M. Aaron, Assistant Attorney General
Department of Justice
1162 Court Street NE
Salem, Oregon 97310
Attorneys for Respondent

1 - FINDINGS AND RECOMMENDATION

SULLIVAN, Magistrate Judge.
Petitioner brings
U.S.C.

§ 2254

convictions

this

habeas

corpus

case pursuant

to

28

challenging the legality of various Baker County

from

2002.

Because

the

action

is

untimely,

the

Petition for Writ of Habeas Corpus (#1) should be dismissed.
BACKGROUND
In 2002,

Petitioner pleaded guilty to Using a Child in a

Display of Sexually Explicit Conduct,

Encouraging Child Sexual

Abuse in the First Degree, and two counts of Sexual Abuse in the
First Degree.

Respondent's Exhibit 101.

Petitioner attempted to

take a direct appeal, but the Oregon Court of Appeals dismissed
that

appeal

as

untimely.

Respondent's

Exhibit

102.

Petitioner

did not seek further review in the Oregon Supreme Court.
Petitioner

next

filed

for

post-conviction

Umatilla County where the PCR court denied relief.
Exhibit 104.

Respondent's

and the Oregon Supreme Court

denied review. Kelly v. Blacketter,

207 Or. App.

320,

600 (2006), rev. denied, 341 Or. 579, 146 P.3d 884
Petitioner

proceeded

to

but was unsuccessful.

April 2,

in

The Oregon Court of Appeals affirmed that decision

without issuing a written opinion,

relief,

relief

2010,

file

for

federal

141 P.3d.

(2006).
habeas

corpus

Respondent's Exhibits 106-108.

On

the Ninth Circuit Court of Appeals declined to

issue a certificate of appealability. Respondent's Exhibit 109.
Petitioner's
Count

Three,

original

Encouraging

Judgment
Child

erroneously

Sexual

Abuse,

reflected
was

a

that

Class

A

felony conviction when it should have been classified as a Class
B

felony.

This

error

exposed

Petitioner

2 - FINDINGS AND RECOMMENDATION

to

a

longer

term

of

post-prison
result,

supervision

than

on November 16,

2010,

to correct the Judgment.
11,

2011,

the

trial

that

authorized

by

law.

a

Petitioner asked the trial court

Respondent's Exhibit 134.

court

As

granted

On February

Petitioner's

request

and

issued the Amended Judgment that correctly identifies the Count
Three conviction as a Class B felony and reduced Petitioner's
term

of

post-prison

supervision.

Respondent's

Exhibit

101,

pp. 2-8.
More than five years later,
filed

another

PCR

Petition

in

on May 25,
Marion

2016,

County

in

Petitioner
which

he

challenged the Amended Judgment. The Marion County Circuit Court
determined that the PCR Petition was improperly successive and
dismissed the

case.

Respondent's Exhibits

121-123.

The Oregon

Court of Appeals summarily affirmed the PCR court's decision,
denied

reconsideration,

review.
Judgment

Respondent's
from

the

and

the

Exhibits

successive

Oregon

127,
PCR

130,
action

Supreme
132.
became

Court
The

denied

Appellate

effective

on

October 7, 2019. Respondent's Exhibit 133.
Petitioner filed the current habeas corpus case on March
10, 2020 when he signed his pro se Petition.1 Respondent asks the
Court to dismiss the Petition because Petitioner failed to file
it within the applicable statute of limitations.
///

1 Error! Main Document Only.Under the "prison mailbox rule," a prisoner's
documents are deemed filed at the moment the prisoner delivers them to prison
authorities for forwarding to the Clerk of Court.
Saffold v. Newland, 224
F.3d 1087, 1091 (9th Cir. 2000) (applying prison mailbox rule to state court
petitions as well as federal petitions).

3 - FINDINGS AND RECOMMENDATION

DISCUSSION
The Antiterrorism and Effective Death Penalty Act
was

enacted on April

24,

1996.

AEDPA provides

("AEDPA")

that a one-year

statute of limitations applies to federal habeas corpus actions
filed

by

state

prisoners.

The

one-year

period

runs

from

the

latest of:
(A)
the date on which the judgment became
final by the conclusion of direct review or
the expiration of the time for seeking such
review;
(B)
the date on which the impediment to
filing
an
application
created by
State
action in violation of the Constitution or
laws of the United States is removed, if the
applicant was prevented from filing by such
State action;
the date on which the constitutional
(C)
right asserted was initially recognized by
the Supreme Court, if the right has been
newly recognized by the Supreme Court and
made retroactively applicable to cases on
collateral review; or
the date on which the factual predicate
(D)
of the claim or claims presented could have
been discovered through the exercise of due
diligence.
28 U.S.C. 2244(d)(1).
In this case,
2011.

the Amended Judgment issued on February 11,

Petitioner had 30 days in which to take a direct appeal

under Oregon law.

ORS

138.071(1) .

When he

did not do

so,

AEDPA's statute of limitations began to run on March 14,

the

2011.

The limitations period ran unabated until Petitioner filed his

4 - FINDINGS AND RECOMMENDATION

PCR

action on May

tolled

the

25,

AEDPA's

2016.2 Although

statute

of

Petitioner's

limitations,

the

PCR filing
statute

had

already run by more than four years.
Once the PCR Appellate Judgment issued on October 7,
the AEDPA statute of limitations

2019,

(that had already expired)

once

again resumed until Petitioner signed his Petition for Writ of
Habeas

Corpus

on March

10,

2020.

This

six-month delay between

the date the Oregon courts issued the PCR Appellate Judgment and
the

date

Corpus
total,

Petitioner

rendered

signed

his

habeas

Petition

the

Petition

for

even

Writ

more

of

Habeas

untimely.

In

2,054 untolled days accrued prior to Petitioner's filing

of his Petition for Writ of Habeas Corpus, placing the Petition
well

beyond

the

365-day

deadline.

Where

establish that his Petition is timely,

Petitioner

fails

to

or that the Court should

excuse the untimely filing, the Petition should be dismissed.
RECOMMENDATION
For the reasons identified above,
the

Petition

for Writ

of Habeas

the Court should dismiss

Corpus

(#1)

as

untimely,

enter a judgment dismissing the case with prejudice.

and

The Court

should also decline to issue a Certificate of Appealability on
the basis that petitioner has not made a substantial showing of
the

denial

of

a

constitutional

right

pursuant

to

28

U.S.C.

§ 2253(c)(2).

2 "The time during which a properly filed application for State post­
conviction or other collateral review with respect to the pertinent judgment
or claim is pending shall not be counted toward any period of limitation
under this subsection." 28 U.S.C. § 2244(d)(2). I assume for purposes of this
Findings and Recommendation that Petitioner's PCR filings were "proper" so as
to qualify for statutory tolling.

5 - FINDINGS AND RECOMMENDATION

SCHEDULING ORDER
This

Findings

and

Recommendation

district judge. Objections,
no objections are filed,

if any,

will

be

referred

to

are due within 14 days.

a
If

then the Findings and Recommendation

will go under advisement on that date.
If objections are filed,

then a response is due within 14

days after being served with a copy of the objections. When the
response

is

due

or

filed,

whichever

date

is

earlier,

Findings and Recommendation will go under advisement.
DATED this 12th day of January, 2021.
/s/ Patricia Sullivan
Patricia Sullivan
United States Magistrate Judge

6 - FINDINGS AND RECOMMENDATION

the

